Smithsonian Institution
Office of the Inspector General




March 30, 2012

Audit and Review Committee 

Board of Regents 

Smithsonian Institution 

Washington, D.C. 20560 


Dear Members of the Audit and Review Committee:

The Office of the Inspector General (OIG) serves as the Smithsonian's Contracting
Officer's Technical Representative for the oversight of the Smithsonian's annual
financial statement audits conducted by the independent certified public accounting
firm KPMG LLP (KPMG). KPMG conducted audits of the Smithsonian's fiscal year
(FY) 2011 Federal Closing Package (federal appropriations reporting), the
Smithsonian's FY 2011 entity-wide Financial Statements (combined federal and trust
reporting), and the FY 2010 audit of the Smithsonian's federal awards, performed in
accordance with u.S. Office of Management and Budget Circular A-133. 1

This letter provides a summary of the KPMG audit reports, KPMG's comments, and
our selected comments. We also provide the OIG statement ofKPMG's adherence to
auditing standards.

KPMG'S FINANCIAL AUDIT REPORTS OF THE SMITHSONIAN

In accordance with contract requirements, KPMG issued the following reports:

Federal Closing Package - On November IS, 2011, KPMG issued an unqualified
opinion (the highest level of audit assurance) on the FY 2011 Federal special-purpose
financial statements. In addition, KPMG reported no deficiencies in internal control.

Entity-wide Financial Statements - On February 24, 2012, KPMG issued an unqualified
opinion on the Smithsonian's FY 2011 entity-wide financial statements and found no
material weaknesses. However, KPMG identified two matters involving internal
control.

Federal Awards - On June 30, 2011, KPMG gave the Smithsonian an unqualified
opinion on its FY 2010 Supplementary Schedules of Expenditures of Federal Awards.

OIG'S STATEMENT ON KPMG'S ADHERENCE TO AUDIT STANDARDS

In connection with our oversight, we reviewed KPMG's reports and audit 

documentation and interviewed its representatives. 


10MB Circular A-133 audit reports shall be completed and submitted within the earlier 000 days after
receipt of the auditor's reports, or 9 months after the Smithsonian's fiscal year end. As a result, current
year (FY 2011) results are unavailable.
MRC524 

PO Box 37012 

Washington DC 20013-7012                        Page 1 of 4 

202.633.7050 Telephone 

202.633.7079 Fax 

We found no instances where KPMG did not comply, in all material respects, with the
American Institute of Certified Public Accountants’ (AICPA) generally accepted
auditing standards (GAAS) and the U.S. Government Accountability Office’s (GAO)
Government Auditing Standards. Our oversight of KPMG’s audit was not intended to
enable us to express, and we do not express, an opinion on the Smithsonian’s financial
statements, internal control, or compliance with laws and regulations. KPMG is
responsible for their audit reports and the conclusions therein.

OIG’S CONCERN ABOUT THE UNTIMELY ISSUANCE OF THE
SMITHSONIAN’S AUDITED FINANCIAL STATEMENTS

We remain concerned about the timeliness of the Smithsonian’s reporting of its
entity-wide financial results. The Smithsonian’s 2010 audit of its entity-wide financial
statements was approximately 40 days later than in 2009. The Office of the Treasurer
(OT) had difficulties in meeting KPMG’s requests for financial reports and other
documentation in a timely manner.

While improvements were made, management delayed the start of the final audit
fieldwork by one month to provide additional time to close the 2011 year-end. As a
result, the 2011 entity-wide audit report was issued approximately one month later
than in 2009. We encourage Smithsonian management to continue the progress made
to improve OT’s reporting capability for timely submission of requested reports and
supporting documentation. We will monitor those efforts during next year’s audit.

SUMMARY OF COMMENTS REPORTED BY KPMG IN FY 2011

KPMG reported the following two comments in its FY 2011 Management Letter, but
KPMG noted no significant deficiencies or material misstatements:

Discrepancies in Contributions Accounting Policies and Procedures

KPMG found discrepancies in the accounting and record keeping for contribution
receivables from donors. The discrepancies were caused by manual processing or the
inconsistent application of accounting policies and procedures across departments.
KPMG encouraged management to strengthen procedures over the application of
cash receipts payments to ensure pledge receipts are appropriately applied against
existing pledge balances. KPMG also encouraged management to enhance discounting
procedures over contributions receivable to ensure organization wide consistency in
policies.

Improper Recording of Operating Expenses

KPMG noted in its audit of both the federal and trust operating expenses instances
where transactions were not recorded in the appropriate fiscal year. KPMG
recommended that management strengthen the training and procedures surrounding
year-end expense cutoff to ensure that transactions are recorded in the appropriate
period.




                                       Page 2 of 4
SMITHSONIAN MANAGEMENT’S RESPONSE

Management concurred with KPMG findings and recommendations and has
proposed corrective actions that will resolve the recommendations.

FY 2011 UPDATE OF FINDINGS REPORTED BY KPMG IN FY 2010

KPMG divided its FY 2010 findings into the following four categories; resolved,
substantially addressed, partially addressed, and in process.

1. Resolved

   Financial Reporting

   The Office of the Comptroller improved adherence to the existing policy on the
   accumulation of relevant supporting documentation used in the preparation of
   SI’s financial statements and disclosures.

2. Substantially Addressed

   Sponsored Projects Accounting

   The Office of Sponsored Projects (OSP) has continued to enhance the processes
   surrounding schedules prepared in support of the general ledger and financial
   statements. However, it appears that OSP is not using the automated reports
   available through the ERP billing and receivables module to support the general
   ledger and financial statements.

   Office of the Treasurer

   During 2011, the Office of the Treasurer hired an additional accountant to
   supplement the previous staff and successfully reduced the accounting backlog. In
   addition, OT is actively monitoring un-invested cash for the endowment.

3. Partially Addressed

   Information Technology Controls

   The Office of the Chief Information Officer enhanced existing policies to require
   the submission of a new account request form for every system user, including
   those that change status to an emeritus or volunteer.

4. In Process

   Contribution Accounting

   Improvements were noted in this process during the past year. Management
   established enhanced processes over the collection and documentation of
   communications with significant donors. Improvements were also noted in the


                                      Page 3 of 4
    process for evaluating pledges for collectability and recording related reserves.
    However, due to the manual nature of contribution processing, deficiencies
    continued to exist in fiscal year 2011.

STEPS TAKEN BY SMITHSONIAN MANAGEMENT IN FY 2011

In our FY 2010 oversight letter we stated that hiring a Chief Financial Officer and
issuing Smithsonian Directive 310 were key steps to improving financial management
at the Smithsonian. In FY 2011, Smithsonian took the following actions:

Hiring of a Smithsonian CFO

On September 26, 2011, the Secretary named Mr. Albert Horvath, Under Secretary for
Finance and Administration and Chief Financial Officer of the Smithsonian
(USF&AICFO). The USF&AICFO is a new position that combines the position of
CFO with the USF&A. Now the Smithsonian's CFO reports directly to the Secretary
and participates in and supports senior-level decision-making.

Issuing Smithsonian Directive (SD) 310 - Financial Reporting andRisk
Management Internal Controls

On June 23, 2011, the Smithsonian issued SD 310. SD 310 requires Smithsonian's
unit directors to provide an Assurance Statement in support of the Smithsonian's
annual financial statement audit. The Assurance Statement requires that unit directors
provide assurances on their respective unit's financial controls and on their
compliance with Smithsonian policies and procedures. Unit directors are also
required to state whether they have knowledge of fraud, suspected fraud, conflicts of
interest, or any material misstatements or omissions in the unit's financial
information.

If you have any questions, please do not hesitate to contact me or Bruce Gallus,
Financial Audit and Quality Control Manager, on 202.633.7050.

Respectfully,



Scott S. Dahl
Inspector General




                                        Page 4 of 4
